Supreme Court, U.S.
FILED

No.

ao-1||5

In The
Supreme Court of the United States

Christopher R Granton
Petitioner

Washington State Lottery Commission
Respondent

On Petition For Writ Of Certiorari To The United
States Court Of Appeals For The Ninth Circuit
Honorable Judges Murguia, Owens, and
Bennett presided.

PETITION FOR WRIT OF CERTIORARI

Washington State Lottery

Christopher R Granton

Kristi Weeks

Pro Se

814 4th Ave. E.

5701 30* Ave. S.E.

Olympia Wa. 98506

Lacey Wa, 98503

360 810-2881

360 890-5546

GINAL

FEB 0 1 2021
OFFICE OF THE CLERK

QUESTIONS FOR REVIEW

I understand that the Supreme Court only takes the
most important cases, but the process seems unequal, as
mostly only politically motivated cases, or those entrenched
in the media get priority. It would be nice if there was a
Supreme Court for average citizens with really important
cases, as the current process makes the average citizen
seem invisible, or too small to recognize.
The first time I filed a petition in this court, the
court conferenced, but did not grant the petition. This time
should be different for a couple of important reasons. The
first is a solution. The last time this court conferenced on
my case, I had no solution for the obstruction of justice that
the States 11th Amendment immunity creates against my
fair property rights claim. I have provided the framework
for that solution in this petition. The second reason is that
there has finally been a similar circumstance to mine. The
last time this action was brought before this court there
had not been a case like it. Florida’s lottery recently had a
winner whose ticket was lost in the mail. As with my case,
Florida Lottery’s initial response was no ticket no prize, but
they changed their mind as there was no fault on the part
of the winner for the lost ticket. The director was on record
saying they would bend the rules for her. My case is
similar, as I was playing by the rules, and the Washington
State Lottery was at fault. Please realize that picking the
winning numbers is special.
1. Did the U.S. Court of Appeals for the Ninth Circuit
err when it did not recognize that my case has federal
subject matter jurisdiction, Standing, and is based on a
federal cause of action?
i

2. Did the Ninth Circuit err when they did not waive
Washington State’s eleventh Amendment immunity, citing
that my case seeks damages when it does not?
3. Did the ninth circuit err when they deemed my
case frivolous, due to Washington State’s 11th Amendment
immunity, when my case does not seek damages, and when
there are many serious issues surrounding my case?
4. Did the District Court err when they dismissed
my case citing that I did not bring any new information to
support my case to the court.
5. Was the Washington State Court of Appeals
decision erroneous because; the court did not account for
fair play, or that mutual assent had formed a contractual
relationship before the violation of the rules/terms on the
Lottery’s part?
6. Did the Washington State Court of Appeals err by
misrepresenting facts and showing bias for the Lottery,
when ruling in a case that involves summary judgement,
where all reasonable facts and inferences were supposed to
be held in a light most favorable to the non-moving party?
7. Should the 11th amendment include a provision to
protect fair property rights from State Court judicial bias,
and to preserve the protections afforded within the Fifth
and Fourteenth Amendments that garner to the inalienable
rights of life, liberty, property, and Due process?

ii

TABLE OF CONTENTS

PAGE
OPINIONS BELOW,

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED............................

2

STATEMENT OF CASE

5

REASONS FOR GRANTING THE WRIT

23

CONCLUSION

28

INDEX TO APPENDICES

APPENDIX A. United States Court of Appeals for the
Ninth Circuit Order
APPENDIX B. United States District Court Western
District of Washington at Tacoma
APPENDIX C. United States Court of Appeals for the
Ninth Circuit Order / Memorandum
APPENDIX D. United States District Court Western
District of Washington at Tacoma Order / Order denying
plaintiffs Application to proceed In Forma Pauperis and
dismissing case
APPENDIX E. The Supreme Court of Washington Order
APPENDIX F. Washington State Court of Appeals
Published Opinion
iii

APPENDIX G. State of Washington Thurston County
Superior Court Order
APPENDIX H. State of Washington Office of
Administrative Hearings for the Washington State Lottery
APPENDIX J. Washington State Lottery Commission
Final Order / Prize Denial

TABLE OF AUTHORITIES CITED

PAGE

CASES

Atlantic Coast Line R.R. v. Goldsboro

13

Bowen v. Massachusetts

11

Celotex v. Cattret

10

Clark v. Library of Congress

11

Cohens v. Virginia............

21

Compton v. Evens..........

8

Coppage v. Kansas...........

25

Delisle v. FMC Corp.

10

Dept, of Income and Maintenance v. Heckler

11

Hans v. Louisiana...........

10

Key Tronic Corporation v. Aetna

11

McClure v. Johnson........

8

McDonald v. City of Chicago,

26
iv

STATUTES AND RULES
PAGE
WAC 315-30-040(2)

3, 5

WAC 315-32-020(2)

3,5

WAC 315-38-050(3)

3. 9

WAC 315-30-020(4)

3, 5

WAC 315-06-070....

3,7

WAC 315-12-110

3, 8

RCW 42.56.550

3, 8

RCW 42.56.520

3, 8

The Eleventh Amendment of the U.S.
Constitution................

18

The Fourteenth Amendment of the U.S.
Constitution............................

26

Article 1 Section 9 cause 3 of the
U.S. Constitution

10

Article 1 Section 10 cause 1 of the
U.S. Constitution,

10

The Freedom of Information Act...

9

U.S. Code 5 U. S. C. § 701-706

11

v

ABBREVIATIONS
TDM- Ticket Distribution Machine
WSLC- Washington State Lottery Commission
AR- Agency Record
OAH- Office of Administrative Hearings
BP- Brief of Petitioner Washington State
Court of Appeals
CP- Court Papers
App.- Appendix
Dkt- Docket

vi

IN THE SUPREME COURT OF
THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari
issue to review the judgement below.

OPINIONS BELOW
The order denying Petition for Re hearing En Banc of the
United States Court of Appeals for the Ninth Circuit at
Appendix A-l to the petition and is unpublished.
The order of the United States District Court for Western
Washington at Tacoma appears at Appendix B-l to the
petition and is unpublished.
The order denying Petition for Re Hearing En Banc of the
United States Court of Appeals for the Ninth Circuit at
Appendix C-l to the petition and is unpublished.
The Memorandum of the United States Court of Appeals for
the Ninth Circuit appears at Appendix C- 2 to the petition
and is unpublished.
The order of the United States District Court for Western
Washington at Tacoma appears at Appendix D-l to the
petition and is unpublished.
The order denying plaintiffs application to proceed in
forma pauperis and dismissing case of the District Court
appears at Appendix D-2 to the petition and is unpublished.
The Order of the Washington State Supreme Court appears
at Appendix E-l to the petition and is unpublished.
1

The opinion of the Washington State Court of Appeals
appears at Appendix F-l to the petition and is reported at
Granton v. Washington State Lottery Commission 143 Wn.
App. 225, 177 P. 3d 745 rev. denied, 164 Wn.2d 1018 (2008)
The Order of the State of Washington Thurston County
Superior Court appears at Appendix G-l to the petition and
is unpublished.
The Initial Order from the Office of Administrative
Hearings appears at Appendix H-l to the petition.

JURISDICTION

The date on which the United States Court of
Appeals decided my case was March 16, 2017. A timely
petition for rehearing was denied by the United States
Court of Appeals on November 30,2017, and a copy of that
order denying rehearing appears at Appendix A-l. The
jurisdiction of this court is invoked under 28 U.S.C. §
1254(1). 28 U.S.C. § 2403(a) may apply.

CONSTITUTIONAL AND STATUTORY
PROVISIONS

WAC 315-30-020(4) Ticket Distribution Machine (TDM).
The computer hardware through which an on-line retailer
enters the combination selected by the player and by which
on-line tickets are generated and claims are validated.
WAC 315-32-020(2) Method of play for on-line games; the
player will use play slips to make number selections. The
2

TDM will read the play slip(s) and issue ticket(s) with
corresponding numbers.
WAC 315-30-040(2) The director shall announce for each
on-line game, the time for the end of sales prior to the
drawings. TDMs will not process orders for on-line tickets
after the time established by the director.1
WAC 315-38-050(3) Under no circumstances will a claim be
paid for either the jackpot prize or the second prize without
an official Mega Millions ticket matching all gameplay,
serial number, and other validation data residing in the
selling party Lottery on-line gaming system computer, and
such ticket shall be the only valid proof of the wager placed
and the only valid receipt for claiming a prize.
WAC 315-06-070 The purchaser of a lottery ticket agrees to
comply with the rules promulgated by the Washington
State Lottery.
WAC 315-12-110 states: Denial of Request. Each denial of a
request for public record shall be accompanied by a written
statement to the requestor clearly specifying the reasons
for the denial, including a statement of the specific
exemption authorizing the withholding of the record and a
brief explanation of how the exemption applies to the record
withheld. Such a statement shall be sufficiently clear and
complete to permit the director or his or her designee to
review the denial in accordance with WAC 315-12-120.
RCW 42.56.550 Requires an agency to show cause as to
why it refused a public disclosure request.
RCW 42.56.520 Agencies must respond promptly to request
for public records. Within five days of receiving a request,
1 The time established for the Mega Millions game is 7:45 pm to 8:01
pm when a new game begins.
3

the agency must respond by either (1) providing the record,
(2) acknowledging that the agency received the request and
provide an estimate of the time it will require to respond to
the request, or (3) deny the public record request.
The Eleventh Amendment to the United States
Constitution provides “ The judicial power of the States
shall not be construed to extend to any suit in law or
equity, commenced or prosecuted against one of the United
States by citizens of another state, or by citizens or subjects
of any foreign state.”
The Fourteenth Amendment to the United States
Constitution provides, in part: No State shall... deprive
any person of life, liberty, or property, without due process
of law; nor deny to any person the equal protection of the
laws.
The Fourteenth Amendment Privileges and Immunities
Clause offers “No State shall enforce any law which shall
abridge the privileges and immunities of citizens of the
United States.”
Article 1 section 9 Cause 3 of The United States
Constitution: “No bill of attainer or ex post facto law shall
be passed.”
Article 1 Section 10 Cause 1 of The United States
Constitution provides in relevant part: No State shall enter
into any law impairing the obligation of contracts.
The Freedom of Information Act, 5 U.S.C. § 552 in relevant
part requires an agency to provide public records upon
request.
U.S. Code § 701 -706 in relevant parts would allow for
review, reversal and complete relief of the agency’s
disallowance decision.
4

STATEMENT OF CASE
This section will detail the circumstances related to
the questions for review. I will start off with establishing
the contractual nature of the action being brought forth,
and a brief history of the interaction with the agency and
the court of first instance to give the court some
background. I would ask that the court reference (17-1321)
for additional information as this is the second time this
action is being brought before this court. I’m trying to be as
original as possible by not repeating everything.
On April 8, 2005, @ 6:50pm I Christopher was
playing the Mega Millions Game, I was paying by the rules,
I had filling out the play slip correctly. I had handed my
completed play slip with my money for the ticket to the
cashier. The cashier took them, and inserted the play slip
into the TDM.2 Instead of printing a ticket as required in
the rules,3 the TDM performed a early break for the
Drawing or “Drawbreak” the entire message on the screen
read “Drawbreak” “Wager refused by central” this is a
proprietary message so only someone who this happened to
would know it exists. An early Drawbreak is a violation of
the rules as there is a rule regarding a specific time that
this function to occur, as this function refuses wager during
the time for the end of sales prior to the drawing.4 When
this function happened early it wrongly refused my wager.
2 WAC- 315-30-020(4) Ticket Distribution Machine (TDM). The
computer hardware through which an online retailer enters the
combination selected the player and by which online tickets are
generated and claims are validated.
3 WAC- 315-32-020(2) Method of play for on-line games; the
player will use play slips to make number selections. The TDM
will read play slip(s) and issue ticket(s) with corresponding numbers.
4 WAC- 315-30-040(2) The Director shall announce for each
online game, the time for the end of sales prior to the
drawings. TDMs will not process orders for on-line tickets

5

The Lottery is contractual by nature, it is designed to
induce many contracts. Some games like the Mega Millions,
and Lotto have different methods of play. This allows the
player a choice between selecting their own numbers, or
having the Ticket Distribution Machine (TDM) select the
numbers randomly. There are two methods of play for the
Mega Millions game, and acceptance or mutual assent of
the contract is different for each.
Mutual assent of a contract happens with offer and
acceptance. The offer is easy to see with the method of play
that I was using. It is the method of play which allows a
player to select their own numbers. A play slip is used for
this method. A play slip for the Mega Millions game has
some rules or terms on it, and is used expressly for
contracting. A play slip is an offer or act of the Lottery’s
offering, operating to create in the acceptor a power, and
having so operated it is exhausted; thereafter the voluntary
act of the acceptor alone will operate to create the new
relations called a contract. An offer is an act on the part of
a person whereby he gives the other the legal power of
creating a contract. Acceptance is the exercise of the power
conferred by the one offering, by performance of some other
act or acts. Both offer and acceptance must be acts
expressing assent. When I completed and handed my play
slip and money to the cashier, she inserted my completed
play slip into the TDM. When this happened I was
exercising the operative power conferred on me by the
Washington State Lottery Commission (WSLC) to a binding
contract, This is so because it is the acceptor’s performance
obligation action to commence the contract, thereby
becoming actively engaged in the terms of the contract, The
very next step in the contract required the lottery to print a
ticket with number selections corresponding to those I
after the time established by the Director.
6

selected on my play slip. I had gotten to that point when a
violation of the rules on the part of the Lottery, caused me
not to have a ticket to provide for validation.
The acceptance part for the second method of play
where the player lets the TDM pick the numbers randomly
happens with an exchange of money for that quick pick
ticket. Because there are no rules, performance obligations,
or play slips associated with this method of play it is
completely different.
After mutual assent had been established any other actions
dealing with that contract including any breach of the rules
or terms of the contract, are in contract and are so
enforceable. This is the performance part, or final step of
the contract process. This is where the parties perform
their mutual obligations under the agreement. Few terms
are necessary for an enforceable contract. Terms must
merely provide a basis for determining the existence of a
breach, and for giving an appropriate remedy. The
purchaser of a lottery ticket (not game specific, all ticket
games) agrees to comply with the rules promulgated by the
Washington state lottery commission under WAC 315-06070,5 thus the rules are included terms of the contract.
Instead of printing a ticket as required under WAC
315-32-020(2), the TDM performed an early Draw Break at
6:50pm. Because there is a rule regarding the specific time
of 7:45pm for this action to occur according to WAC 315-30040(2), and because this action refuses wagers, when it
happened early it caused a breach of contract. “When an act
complained of is a breach of specific terms of the contract,
without any reference to the legal duties imposed by law
5 WAC- 315-06-070 The purchaser of a lottery ticket agrees
To comply with the rules promulgated by the Washington State
Lottery.
7

upon the relationship created thereby, the action is in
contract...”6. The violation caused a breach of specific terms
of the contract after mutual assent had formed a
contractual relationship, therefore, therefore the Lottery is
responsible for the violation, the breach and its contractual
obligations.
At the time I was walking and taking the bus
because my driver’s license was suspended. I had given
myself enough time to get to the store and back, get
changed then go to work. The store was 1.1 miles from my
home, and work was 1.9 miles from my home. When I got
home I was going to ask my sister’s boyfriend to give me a
ride to work, but he was gone. I got ready for work and
hurried there I clocked in at 7:54 pm. for my shift that
started at 8pm. (AR 24-27) There was nowhere along the
way that I could have played those numbers again.
After an incomplete investigation done by the WSLC,
(AR 54, 189) the matter was set to be heard by the Office of
Administrative Hearings (OAH). Both the case report and
supplemental case report for the investigation are
inconsistent with the facts. (AR 31,181-185) After speaking
to investigator Jennifer McDaniels, I asked to speak with
the Director. On May 18th 2005.1 spoke with Deputy
Director Julie Martin. I had explained exactly what had
happened, and that I had picked the winning numbers. On
May 27th 2005 I spoke with Ms. Martin again, where she
explained that the early draw break was more than likely
caused by an internal time clock error due to daylight
savings time. I asked her to investigate that possibility
further, and to look for my transaction to show I had picked
the numbers. I never heard from her again, instead I
6 Compton v. Evans, 200 Wash 125, 132, 93 P.2d 341
(1939) (quoting McClure v. Johnson, 50 Ariz. 76, 69 P.
2d 573 587 (1937).
8

received a letter from the Lottery saying that they were
discontinuing the investigation,
I appealed my case to the Office of Administrative
Hearings. Initially Administrative Judge Jane Habeggar
was to hear the case, but there was a judge change, and
Administrative Judge Robert Kraybill took over. Judge
Kraybill showed bias for the lottery in several ways. He did
not require the Lottery to honor my notarized Request for
Public Record as required in the Freedom of Information
Act. I received the request forms from the lottery on Sept.
22, 2005.1 completed them had it signed by a notary public
and mailed it out the same day. (AR 178-181) I was never
even given reason why the request could not be honored7.
Judge Kraybill did not order a Subpoena Duces Tecum for
information from the lottery’s vendor that was relevant to
my case as he said he would. Judge Kaybill said I would
have to fill out the forms and he would order the subpoena.
I filled out the forms (AR 148, 152, 153) but he never
ordered the subpoena. Judge krabill did not recognize fanplay or mutual assent of the contract. Instead of ruling in
fairness, Judge Kraybill granted the lottery summary
judgment on the grounds that there is a regulation with the
effect of law WAC 315-38-050(3) that says without
presenting a ticket, I cannot claim my prize. I believe Judge
Kraybill showed bias because he allowed the law to be used
unfairly. The law itself resembles an Ex Post Facto law as
it retroactively changes the legal consequences of the
action. Instead of the Lottery being held accountable for the
violation, and contract rules, the law retroactively punishes
me for a violation created by the lottery. The drafters of the
Constitution firmly believed that the power to create ex
7 By not doing so put the Lottery in violation of standards
set in WAC 315-12-110, RCW 42.56.550, RCW 42.56.550,
and The Freedom of Information Act.
9

post facto laws was one of the hallmarks of tyranny,
because they place the citizens at the mercy of the
government. The framers put an ex post facto bar into the
constitution in two places, it prohibits federal and state
legislators from passing retroactively applicable
legislation.8 Due Process is founded on fairness, in fairness
I cannot be expected to provide a ticket to the lottery that
was wrongly refused to me, solely as a result of a violation
of the rules on the lottery’s part. In fairness the lottery
should have been held accountable for the violation, and my
play should have been honored because I was playing by
the rules and had given consideration for the contract
before the violation. There were genuine issues of material
fact, and the lottery was not entitled to summary
judgement.9
The remainder of this section references my return to the
federal courts, and will detail my questions for review.
After submitting a Petition for Writ of Certiorari to
this Court April 23rd 2018, the Court conferenced about my
case. No details of the conference were given, so I don’t
know why the court decided not to hear my case. After
conferencing this court denied my petition .

8 See U.S. Const. Art. I § 9 Cl. 3 (No bill of attainer or
ex post facto law shall be passed.)”; U.S. Const. Art. 1
§ 10 cl.l(No state shall pass any bill of attainer, ex post
facto law, or law impairing contracts”)
9 Key Tronic Corporation v Aetna 124 Wn.2d 618,
881 p.2d (1994) “Summary Judgement is only
appropriate if reasonable minds...” Delisle v FMC
Corp., 57WnApp 79, 84, 786p.2d 839(1990) ‘The
petitioners burden in responding to a summary
judgement motion is to create an issue of fact, not
carry the burden of persuasion.” Celotex u Cattret
477 U.S. 317, 323 (1986) “An issue is genuine when
it effects the outcome of the case.”
10

Still wanting justice I tried the Court of Federal
Claims, though the judge there seemed to want to help, it
was the wrong court to pursue justice. From there I felt
reinvigorated and went through all the decisions made
against my case. When I got to the District Court’s decision,
I realized that the District Court had dismissed my case
without prejudice. Seeing it as a second chance, I set out to
address all of that court’s original concerns.
Upon my return to the District Court I was better
prepared, but still seriously disadvantaged. I would have to
say that my biggest disadvantage was in the area of
Jurisdiction, specifically an unfair State 11th Amendment
immunity, which was modified in 1890 in a way that the
founders would not have wanted and would not recognize
as American by the standards they set for the countiy. I
will go into further detail about that later in the petition.
The only jurisdiction I knew for sure that I had was Federal
question jurisdiction U.S.C. § 1331 because the Lottery
violated Article 1 Section 10 Cause 1. For a violation of the
Contract Clause.
I wasn’t exactly sure about having jurisdiction under
5 U.S.C. § 701- 706 for review and reversal of the agency’s
decision. There were so many similarities in Bowen v.
Massechusetts, and Dept, of income and maintenance v.
Heckler that showed what I was seeking was specific relief
of a monetary award, and not damages. I understand that 5
U.S.C. is for the APA’s use for federal agencies, but it is not
without Merit. The case of Clark v. Library of Congress
shows that § 702’s waiver of sovereign immunity is not
restricted to suits under the APA, and it effects a general
waiver of the governments sovereign immunity no matter
what the cause of action. It was held that even though the
Library of Congress was not a Federal agency, for the
purpose of suit under the APA, the APA nevertheless
11

waived the Library of Congress’s sovereign immunity,
thereby subjecting it to suit based on alleged violation of
the 1st Amendment.
I also believed that the District Court had Diversity
jurisdiction. I know that this was a bit of a stretch, but it
also was not without merit. I explained that normally an
action concerning the Washington State Lottery
Commission would not warrant Diversity Jurisdiction,
except that the Mega Millions game is a multi-state game
operated by a consortium of 12 states. These 12 states as a
whole, sets and enforces the rules of operation for the Mega
millions game. The qualifications for Diversity Jurisdiction
are that the dollar amount exceeds $75,000 and where the
parties are diverse in citizenship or state of incorporation,
which generally indicates that they differ in state or
nationality. Because I am claiming entitlement to a specific
monetary award with a value of $102,000,000 and because I
do not have residency in 11 of the 12 consortium states I
believed that Diversity Jurisdiction could apply.
The issues covered by my District Court complaint
included: honest contracting, fair play, federal question
jurisdiction and state court judicial bias. Also I have
consistently appealed that my claim is for the April 8, 2005
Mega millions jackpot prize, and that my plight has been
the reversal of the decision to deny my claim, and not
damages as there is a distinct difference.
In the area of fair play and honest contracting, I
explained to the court that because I was actively playing
by the rules, and that because the rules of the game are the
terms of the contract, mutual assent had occurred prior to
the violation by the lottery. I explained to the District Court
that the Washington State Attorney General’s office
representing the Washington State Lottery Commission,
12

filed for summary judgement using a law that gives the
lottery an unfair immunity from circumstance. I explained
how the law is unfair and unconstitutional as applied in
several ways. The law or regulation WAC 315-38-050(3)
requires me to provide a ticket in order to receive my prize.
It offers an under no circumstances provision within it, that
creates an unfair immunity from circumstance even when
the lottery is in violation, and any fair property right of the
person playing by the rules is unjustly forfeit. This law, or
regulation with the power of law, as applied is a violation of
due process because it offends principals of justice so rooted
in the traditions and conscious of Americans as to be
ranked as fundamental. It violates the principals of
fairness, and equality in an equitable action for relief, as it
retroactively nullifies honest contracting. I explained that
the use of this law or regulation as applied against my
claim violates the contract clause of Article 1 Section 10
Cause 1 of the U.S. Constitution. Lastly, I explained that
the law or regulation is deficient or flawed because it treats
both methods of play the same when they are completely
different as explained earlier. This is because there is no
accountability afforded within this law to the contractual
performance obligations that exist with the method of play
where a player selects their own numbers. I explained that
this law allows the lottery to be unaccountable to persons
playing by the rules, in a situation where they should be
held accountable. “All contract and property right is subject
to its fair exercise.” Atlantic Coast Line R.R. v Goldsboro
222 U.S. 548, 558 (1914). I use this quote to show the
importance of fairness, not just in the context of fairness
itself, but also for the equality of fairness in an equitable
example.
One of the District Court’s original concerns was that
Washington State’s statute of limitations for contracts had
13

expired. I knew that if it weren’t for judicial bias in the
State courts, I would have won my case. I believe in some
ways all of the State Courts were bias for the Washington
State Lottery Commission, I believed that by explaining
how the bias occurred in the last State Court that heard my
case, then it would have negated the fact that the statute of
limitations had expired. I have explained the judicial bias
in other courts including this one. I have never explained it
better than I did in my final amended complaint to the
District Court (DK-22). I wrote four pages of how The
Washington State Court of Appeals Division 2 showed bias
and backed it up with excerpts of the record. If The
Supreme Court were to review this, it would be easy for you
to see the bias.
I addressed the District Courts original concerns
which were; that I had not properly articulated the
contractual nature, that Washington’s 11th amendment
immunity prevented suits seeking damages, and that the
statute of limitations for contracts had expired. Part of my
reasoning for Judge Bryan to reopen my case, was that
previously I did not know how limited jurisdiction worked,
and that I did not know how to properly articulate the
contractual relationship. This led me to amend my
complaint multiple times and ultimately fail my first time
through the District Court. Though I believed getting these
things right the first time would have let the Court hear my
case, it was not my only reasoning for reopening the case as
Judge Bryan suggests. Judge Bryan left out two of the most
important parts, he left out the part where I showed that I
was not seeking damages which would negate the states
immunity, and he did not address the state court judicial
bias, which would have shown that I got it right before the
statute of limitations for contracts had expired. In fact the
Federal Court system as a whole has avoided these issues
14

like these kinds of things can’t happen. Judge Bryan
claimed that; “The issues raised here have been raised
before this court, and on appeal with no avail.” This is
misleading, as not everything that I presented in my final
amended complaint was heard in the first, second, or third
amended complaints back in 2016 where I was really
struggling to get things together. For example, besides
addressing all the courts original concerns which I did not
the first time, I brought up Diversity jurisdiction, showed
how my case does not seek damages, showed how the law
used against my claim violates due process, and detailed
Judicial bias from Washington State Court of Appeals
Division 2. Furthermore not everything that I appealed in
the federal courts was addressed before I presented my
final amended complaint. The fact that I am/was not
seeking damages, but an equitable action for specific relief
in the form of a reversal of an agency’s final order has not
been recognized by the federal courts even though it is
explained clearly and correctly, using case law examples
from decisions of this Court. Judge Bryans ruling did not
seem right to me, because my complaint was progressive.
With every appeal I have addressed the concerns of the
previous Court’s ruling in a progressive fashion, so that I’m
not just repeating everything.
One of the things that show the courts did not
recognize the progressive nature of my case is, that the
Ninth circuit did not recognize the difference between
damages” and an equitable action for specific relief. I’ve
read that judges often have a difficult time recognizing the
difference. The telling difference, is that damages”, is a
compensatory relief for an injury suffered. An equitable
action for specific relief, which can be declaratory and
injunctive relief such as a reversal of a final order, is
different because any moneys awarded would be monies
15

already entitled. Because I was actively playing the game,
and had given consideration, mutual assent of the contract
had happened. If all contract and property right are subject
to its fair exercise, then I should be entitled to that prize
upon reversal of the State Lottery’s Final Order, and
damages do not apply because it’s not compensatory relief.
The significance of this should have given cause for the
Court of the United States to take action, and to discard the
States 11th Amendment immunity. The fact that the
Supreme Court could not make room on the docket for my
case the last time I petitioned for a Writ of Certiorari, does
not make my case or its issues any less important. The
Supreme Court does not give answers when it decides it
doesn’t have room on the docket for a case. My reasoning
here is that if the Ninth Circuit Court of Appeals gets it
wrong, and the Supreme Court doesn’t have room on the
docket to get it right, then the appeal still stands to be
righted. Judge Bryan’s ruling states that everything said in
my final amended complaint was addressed on appeal. This
does not hold weight, because the important issues were
not properly addressed on appeal. My case bares a heavy
burden in lower federal courts, because the supreme court
did not act, or did not have room on the docket to act the
first time. The Supreme Court only has 9 Justices, that’s 9
for a county of 300,000,000 people or so. Only so many cases
get in, so if there is a lot of high profile political, or a flood
of pandemic related cases, other important cases will get
the bump. Also How many important cases could have been
heard by the Supreme Court if the court wasn’t tied up with
President Trump, or other strictly political agendas. The
fact is that many important cases fall through the cracks of
the Supreme Court. I feel as if Judge Bryan did not do his
job with enough detail, he failed to address the tough
issues, and adopted a complacent attitude against my case.
He originally closed the case without prejudice for me to
16

address unresolved issues, and in coming back to the
District Court that is exactly what I did.
Upon returning to appeal to the Ninth Circuit Court
of Appeals, I wrote a Preliminary Statement. In this
statement I told the Appeals Court that I believed they did
not give me equal protection under the law, and that the
ruling they gave was inappropriate, or wrong. The court’s
initial decision, saying that I was seeking damages was
incorrect. Being pro se this was a difficult thing to do. I did
not want to show disrespect, I wanted to be clear and
detailed about how they failed me. I believe I failed at this,
as they took exception to being called out, and threatened
to dismiss my case as frivolous. They had me write a
statement of how the court erred, and why my case should
proceed. I was very clear in my reasoning in this statement.
The Court disregarded a lot of facts in my statement, and
relied solely on the State’s 11th amendment immunity to
judge my case as frivolous. My questioning the integrity of
that decision, should be the same as anyone with reason to
find justice. If a law, amendment, or provision causes an
obstruction of justice, shouldn’t that law, amendment or
provision be thrown out, or be changed in a way that it
doesn’t give cause for abuse, or obstruction? Isn’t it the
responsibility of the court to make these changes to
preserve the integrity of justice and liberty?
I knew that I was going to have to take another tact
with this court the second time around, so I focused my
issues for review to show the Ninth Circuit that it has
jurisdiction for review. Those questions were: 1) Does the
court in which the suit was filed have jurisdiction? 2)
Should Washington States sovereign immunity be waived?
3) Does my case have standing? 4) Is the suit based on a
Federal cause of action? I felt this was a better tact for the
situation because it gets right to the meat and potatoes of
17

whether the ninth circuit could hear my case. All my
answers were clear, and I showed good cause for review of
my case by the court.
For the first issue for review, I explained that the
District Court has original jurisdiction under 28 U.S.C. §
1331 Federal Question Jurisdiction, because the law used
to deny my property claim violates Article 1 Section 10
Cause 1 of the United States Constitution for impairing the
obligation of a contract. I also explained how the use of the
law against my claim violates due process standards of the
5th and 14th Amendments in regard to denying citizens their
property rights without due process.
The second issue for review, “Should Washington
State’s 11th Amendment immunity to suit be waived?”
Washington’s 11th amendment immunity was used to deny
me access to the Federal Courts and has been an impossible
obstacle to overcome. When this Amendment was altered
by the court in 1890, it was done incompletely. The court
that changed this amendment, failed to see that changing
this amendment to include citizens suing their own state
without making provisions to protect citizens property right
from state court bias was wrong. This should not have
happened for several reasons.
The 11th Amendment provides: “The judicial power
of the states shall not be construed to extend to any suit in
law or equity, commenced or prosecuted against one of the
United States by citizens of another state, or by citizens or
subjects of any foreign state.” As the amendment originally
stood it said nothing of sovereign immunity, and there was
no text to support the notion that a state could not be sued
by its own citizens in federal court. The founders knew that
state judicial bias could exist. That is part of what diversity
jurisdiction was all about. I believe the founders knew the
18

states would grow to be powerful, I believe they did not
include citizens suing their own state in the 11th
amendment because they recognized the imbalance of
power it would create. It basically gives the state the power
to deny citizens their fair property right without due
process. Because of this, it makes the change
fundamentally flawed as it strips the power of the
Constitution to protect citizens rights, solely for the dignity
of the state. Does this sound familiar, it should because
that is the same power of a king.
The change to the 11th Amendment without
provisional protections to protect property rights goes
against the ideals this country was founded on, and those
ideals resonate the most in one sentence of the Declaration
of Independence. “But when a long train of abuses and
usurpations, pursuing invariably the same object evinces a
design to reduce them under absolute despotism, it is their
right, it is their duty, to throw off such government, and to
provide new guards for their future security. I explained
how the 1890 case of Hans v. Louisiana 134 U.S. 1 (1890)
ruling was narrow minded, and how the court mis­
interpreted what was originally written in the 11th
Amendment. The court relied heavily on Hamilton’s
remarks in the Federalist No. 81 “It is in the nature of
sovereignty not to be amenable to the suits of an individual
without its consent.” This has to be taken into context. The
country was still young, and relatively unpopulated. The
reason behind sovereign states was the notion that state
courts would not be bias against its citizens, and that states
could govern their laws through their courts in a fair and
equitable manner. When I say the court’s ruling was
narrow minded, it mainly relates to the growth of State
power or State government, and the imbalance of power
that current State governments hold over citizens in all
19

civil action because of this change, but especially in
property right disputes. Hamilton would have agreed that
it creates an imbalance of justice and power, when a State
court shows bias for a state agency in a property rights
case, and the state agency receives immunity for actions
that violate a citizen’s rights and Constitutional law. The
court’s misinterpretation of the 11th Amendment was a
gross disservice to citizens and the Constitution. The
founders will” for our nation was loud and clear in the
Declaration of Independence, they did not want a
government that would devise a way to eliminate a State’s
responsibility for violating a citizen’s inalienable rights.
The rights that they fought for, are rights against any
government action that causes a long train of abuses and
wrongdoing against U.S. citizens. In The Declaration of
Independence, in appealing to the Supreme Judge of the
world, the founders declared their power, and the power of
the nation to include the power to levy war, conclude peace,
contract alliances, establish commerce, and to do all other
acts or things which independent states may of right do,
“and for the support of this Declaration, with a firm
reliance on the protection of divine providence, we mutually
pledge to each other our lives, our fortunes and our sacred
honor.” By changing the 11th Amendment to include
citizens not being able to sue their own state, even in
property right cases, is the opposite of support for the
Declaration, as it dissolves the principals on which it was
created. The change essentially gives every state the power
of a king, and all the protections afforded in the
Constitution to protect citizens rights are rendered
powerless.
I understand that it would be a huge mess if
everyone started suing their own state, it would invite a
long fist of frivolous suits that the courts shouldn’t have to
20

deal with. What should have happened, is there should
have been a provision added to protect property right. In
my Motion for Rehearing En Banc to the Ninth Circuit I
outlined a resolution to correct that imbalance. I explained
that cases that involve property right dispute between a
citizen and their state of residence where the amount in
dispute exceeds $75,000 could be heard in federal court.
This proposed provision would protect said property rights
from state judicial bias, and protect the dignity of the
citizen’s rights when said property is so entitled. This
should only be allowed where a state, or state agency, is
denying a citizens fair property rights, in excess of $75,000
or whatever limit this Court deems fit. It should also be
required that any such action being brought before Federal
Courts be from a State’s Final Order. Furthermore i think
that it would also be fair to require that any transferable
case at least goes through a State’s Court of Appeals, to
give the State a fair chance to hear the case before being
brought before the Federal Courts. This is an outline for a
solution, the specific details of the solution should be
worked through by the members of this Court.
Using the landmark case of Cohens v. Virginia
(1821), I explained to the Ninth Circuit “that, as the
constitution originally stood, the appellate jurisdiction of
this court, in all cases arising from the constitution, laws,
or treaties of the United States, was not arrested by the
circumstance that the State was a party.” The ruling Court
recognized, “that a defendant that seeks appellate review of
an adverse decision does not commence or prosecute a suit
against a State.” This could also be said of a person seeking
review of an adverse decision from a State agency when the
decision involves the denial of property right, and when the
regulation used by the agency has the effect of law and
violates constitutional standards. The court also said that
“The 11th Amendment would not apply because the Cohens
21

were Citizens of Virginia, and thus their appeal against
Virginia was not by a citizen of another state, or by a
citizen or subject of any foreign State.” The State of
Virginia had already arrested, jailed, and prosecuted the
Cohens. If it were not for the constitutional protections
provided as the constitution originally stood, the
convictions would have stood. This case is a great example
of the protections provided by the original version of the
11th Amendment and shows how the ruling in Hans v.
Louisiana some 69 years later was narrow minded, as the
change doesn’t hold the values written by our founders. As
the 11th amendment originally stood it served as a check
and balance to protect against State Judicial Bias in cases
involving Constitutional right. I don’t think the judges
involved in Hans v. Louisiana gave consideration to this, or
to how big and powerful State governments would become,
or how that power’s influence could effect state court
decisions, especially in high dollar property right cases
against a State. States know that they don’t have to honor
the Constitution in property right disputes, because there is
immunity that lets them trample citizen’s rights if need be.
That has been the single most obstruction of justice in my
case. It has caused the district court to dismiss my case,
and was only reason the Ninth Circuit dismissed my case
as frivolous. As for the content of the appeal itself there is
nothing frivolous about my case, all of the issues are
serious. Everything; from the Lottery’s handling of my case,
the way the Attorney General office used a law to dismiss
my case that violates constitutional and due process
provisions, the way the State courts showed bias for the
State Lottery, to the fact that the power of the constitution
designed to protect my rights has no backbone in the
federal courts, are important and serious issues. Just
because the Ninth Circuit doesn’t have the power to make
the necessary changes, doesn’t make my case frivolous or
22

malicious, nor have they shown cause for frivolity
otherwise.
The third issue for review, “Does my case have
Standing or “injury in fact”? My explanation for this
question was strait forward. The constitution requires
under Article III for the existence of standing, are that the
plaintiff must personally have: 1) suffered some actual or
threatened injury; 2) that the action can fairly be traced to
the challenged action of the defendant; 3) that the injury is
likely to be redressed by a favorable decision.
I explained that my case meets the requirements for
standing because the injury is the product of “a wrong
which directly results in the violation of legal right.”
Because it is “one of property, one arising out of contract.” I
explained that “With review and reversal of the agency’s
final order the injury is likely to be redressed. “Redress is
possible because any monies awarded is an adjustment for
what was already entitled and not damages. The fact that I
am not seeking damages, plus the fact that 702’s general
waiver of sovereign immunity is not restricted to Federal
agencies see Clark v. Library of Congress., should give me
great standing to be heard under the APA.
The fourth question for review in this court, “Is the
suit based on federal cause of action?” I explained that “the
suit is based on the federal cause of action for the violation
of Article 1 Section 10 Cause 1 of the U.S. constitution, and
for the violation of Due Process.”

23

REASONS FOR GRANTING THE PETITION

Reasons for granting this petition go beyond
reversing the Lottery Commission’s decision to deny my
prize claim. There is a broken system of justice that needs
to be addressed and fixed. By not having a check and
balance to ensure State courts don’t violate citizen’s rights,
or allow them to be violated by State agencies is wrong.
Citizen’s constitutional rights must be protected from
arbitrary state law, and from any State Court judges who
would uphold such law despite the Constitution? The part
that is broken lies with the change that was made to the
11th Amendment, as there was no provision to protect
citizens property rights against state judicial bias. The
Ninth Circuit Court of Appeals dismissed my case as
frivolous, which means unimportant, or not serious because
of this immunity, even though I showed state court bias.
The eleventh amendment immunity acts as an obstruction
of justice, and a divisive tool used in property rights cases
against states, It causes a long train of abuses as its use
disregards the principals of actual justice.
When you break my case down to the basics, you
should see; 1) I was playing the game by the rules. 2) The
rules of the game are the terms of the contract. 3) The
Lottery violated the rules, as I was actively playing the
game, and after consideration was given. 4) The only reason
I did not present a ticket for validation was for the
violations of the rules on the Lottery’s part. 5) The Lottery
used a law against my claim that says without a ticket I
can’t claim my prize, even though it was a violation of the
rules on their part that wrongly refused me a ticket to
present. 6) State courts upheld the State agency’s ruling
against my claim, even though it doesn’t support actual
24

justice or dignity, and flies in the face of constitutional
provisions that protect fair contract, and property rights. 7)
Federal Courts have their hands tied because the original
11th Amendment was changed without provisions for
protecting citizen’s fair property rights from State Court
Judicial Bias.
Until recently there has not been a case similar to
mine. In August 2020, Sue Burges of Hernando County
Florida won a second chance lottery drawing. And had to
mail her ticket into the lottery headquarters. The lottery
notified her three days late. She mailed in her ticket, but
her ticket was lost in the mail. By the no ticket no prize
rule she would have had to forfeit her winnings. The
Florida lottery stated: “Burgess is too late to turn in her
ticket, and another winner received her $1,000 _the Florida
lottery is willing to bend the rules.” When her ticket arrived
late she was still awarded her prize. This was more than
likely because it was partly the Florida lottery’s fault, and
Sue Burgess had done nothing wrong. The principals of my
case are the same. The Washington State lottery was at
fault in my case, and I had done nothing wrong. Shouldn’t
the same principals of resolution apply? I’m not some nice
lady from Florida, but I am a person, and a citizen. To that
end justice should be equal. For this The Declaration of
Independence offers “We hold these truths to be selfevident, that all men are created equal, that they are
endowed by their creator with certain unalienable rights,
that among these are life, liberty, and the pursuit of
happiness.”
It was wrong that the Washington State Lottery
Commission used WAC 315-38-050(3) to deny my claim,
because the immunities of this law extend to impair
contractual obligations as applied. Article 1 Section 10
Cause 1 of the United States Constitution says that no law
25

shall be entered that impairs the obligation of contracts.
Also my right to contract is protected under Liberty of
contract, applied repeatedly in subsequent cases as a
restraint on Federal and State power. Freedom of contract
was also alluded to as property right as evident in the
language of Coppage v. Kansas 236 U.S. 1,14 (1915).
“Included in the right of personal liberty and the right of
personal property- partaking in the nature of each- is the
right to make contracts for the acquisition of property.”
Liberty implies the absence of arbitrary restraint. The
privileges and immunities clause of the 14th Amendment
offers “No State shall enforce any law which shall abridge
the privileges and immunities of citizens of the United
States.” If the right to contract is afforded to me under the
5th Amendment, then relief should be available under the
privileges and immunities clause of the 14th amendment
because it protects the rights “which owe their existence to
the Federal Government, its national character, its
constitution, or its laws.”10
I have learned a lot fighting for my prize, but mostly
about dignity. I mentioned on page 14 of my second opening
brief to the Ninth Circuit, that the founders didn’t care so
much about dignity, that they wanted the fairness that
freedom provides. In that I was only partially right, I now
understand now that dignity encompasses law and order,
justice, equality and fairness. In no way is it, or should it
become a one way street. To whom should dignity matter
the most in this case? Shouldn’t it be mine since I am
fighting for all of those things? The founders fought for
more than the dignity of the States that would represent
our country, they were fighting for their neighbors, friends,
family and self-dignity. Property right was a big part of
that dignity, as well as fundamental fairness in the courts,
10 McDonald, u City of Chicago 561 U.S. 742 (2010)
26

upholding principals of right, and making changes where it
is needed to reflect fair and equitable action. They didn’t
want to trade one dictator for 50, or have changes to the
constitution that would encumber the rights, and dignity of
the citizens it was created to protect. I would urge this
court to grant this petition, not just so I can finally get the
justice and dignity I deserve, but to set provisions in the
11th Amendment to protect property rights against adverse
State action that would violate the Constitution, and or,
receive bias from the State courts. There has to be some
protective provision within this amendment to prevent
State judicial bias, or States will continue to use it in high
dollar property disputes continuing a long train of abuses
and usurpations. When questioning whether the change to
the 11th amendment in 1890 violates the Constitution, one
only needs to be able to define the principals of the
Constitution. By determining that the Constitution is the
power of the people, and that the government was
instituted by the people for the people. Then the principals
of the Constitution would be founded on the rights of the
people. Those rights are founded on equality and common
good and are embodied in six words of the Constitution,
those words are “with liberty and justice for all.” The
change to the 11th amendment does not support these
principals, as it encumbers the protections of the rights
granted in the Constitution.
I have fought for a long time for fairness, only for
fairness to be obstructed by an immunity that doesn’t allow
cause cause for justice and to prevail. At first I was just
fighting for my prize, in doing so, my fight has given rise to
other important issues that need this court’s immediate
attention to preserve the integrity of the Constitution, and
dignity of the citizens that rely on it for justice. Why would
due process be founded on the principal of fundamental
27

fairness, if not to be used progressively in changing laws
and amendments to reflect that principal? I have given this
court the framework to correct this imbalance, by adding a
provision to the 11th Amendment to protect citizen’s fair
property right from State judicial bias, and arbitrary State
law. I believe this court could use this framework, add the
necessary details, and secure this right for the people. The
Declaration of Independence offers to this “That to secure
these rights, Governments are instituted among men,
deriving their just powers from the consent of the governed,
--That whenever any form of government becomes
destructive of these ends, it is the right of the people to
alter or to abolish it, and to institute new Government,
laying its foundation on such principals and organizing its
powers in such form, as to them shall seem most likely to
effect their safety and happiness.

CONCLUSION

The petition for writ of certiorari should be granted.

Respectfully submitted,
Christopher R Granton Pro Se.

28

